@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B ml efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-608

MARK ELSTER and SARAH PYNCHON,
Petitioners,
Vv.
THE CITY OF SEATTLE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF GOLDWATER INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4178 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary . Mitte. & Chk,
State of Nebraska . . ,

Notary Public Affiant 39049

My Commission Expires Nov 24, 2020

 
